APPENDIX

1a
APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_____________
No. 19-4782
_____________
UNITED STATES OF AMERICA,
Plaintiff – Appellee,
v.
LAMONT KORTEZ GAINES,
Defendant – Appellant.
_____________
Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. T. S. Ellis,
III, Senior District Judge. (1:17-cr-00106-TSE-4)
_____________
Submitted: March 27, 2020
Decided: June 5, 2020
_____________
Before WILKINSON, MOTZ, and DIAZ, Circuit
Judges.
_____________
Affirmed by unpublished per curiam opinion.
_____________

2a
Daniel Suleiman, Brendan Duffy, COVINGTON &
BURLING LLP, Washington, D.C., for Appellant. G.
Zachary Terwilliger, United States Attorney, Rebeca
H. Bellows, Assistant United States Attorney,
Alexander E. Blanchard, Assistant United States
Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Alexandria, Virginia, for Appellee.
_____________
Unpublished opinions are not binding precedent in
this circuit.
_____________
PER CURIAM:
Lamont Gaines appeals his conviction for carjacking, in violation of 18 U.S.C. § 2119, after a jury trial
convicting him on twelve counts. Gaines contends that
the evidence was insufficient to support his conviction
for carjacking and that the district court thus erred in
denying his motions for a judgment of acquittal on
that charge. For the reasons that follow, we affirm.
I.
A.
On March 18, 2017, Muhammad Kurshid’s white
Nissan Altima was stolen from the parking lot of an
apartment complex in Alexandria, Virginia. Kurshid
was walking from an apartment to his car when he
noticed a man attempting to open one of the car’s
doors. When Kurshid moved to get a closer look, a second man approached him, pointed a gun, and told him
to put his hands up. The first man then approached
and took Kurshid’s wallet, cell phone, and car keys

3a
from his pocket. The two men got in Kurshid’s car and
drove away.
Kurshid called 911 two or three minutes after the
robbers fled. During the call, Kurshid described one of
the men as being approximately six feet tall, 150
pounds, clean shaven, and wearing a black hoodie, tan
jeans, and black shoes.
Security camera footage recorded twenty minutes
after the carjacking showed Gaines and another man,
Desmar Gayles, exiting the stolen car and entering a
food market in southeast Washington, D.C. The footage showed that Gaines had been driving the car, had
facial hair, and was wearing a black hoodie, black
jeans, and pink shoes.
B.
A month later, Gaines, Gayles, Anton Harris, and
Andrew Duncan were arrested in relation to a string
of armed robberies and related carjackings in the
Washington, D.C. metropolitan area. Collectively, the
group was charged with forty-one counts. Gaines was
charged with eighteen counts, including one count of
carjacking stemming from the theft of Kurshid’s car.1
His codefendants each pleaded guilty to two counts of
using, carrying, and brandishing a firearm during and

1

A person commits the crime of carjacking if he, “with the intent
to cause death or serious bodily harm[,] takes a motor vehicle
that has been transported, shipped, or received in interstate or
foreign commerce from the person or presence of another by force
and violence or by intimidation, or attempts to do so.” 18 U.S.C.
§ 2119.

4a
in relation to a crime of violence, while Gaines elected
to go to trial.
At trial, Kurshid testified regarding the carjacking. Kurshid explained that the taller man he had
described to the 911 operator (who the government alleged was Gaines) was the one who took his keys,
phone, and wallet. According to Kurshid, the taller
man had “[j]ust [a] little bit” of facial hair, but “no []
heavy beard” and affirmed that he was wearing a
black hoodie, tan jeans, and black shoes. J.A. 491.
Further, when asked about the inconsistencies in his
testimony and the 911 report regarding the man’s facial hair, Kurshid explained that he was scared and
his attention was focused on the gun, not the carjackers’ features.
Additionally, the government introduced the following text message conversation between Gaines and
Harris from approximately thirty minutes before the
carjacking:
Harris: “Make sure you keep your head low
broski.”
Gaines: “I[‘]m hip.”
J.A. 2097. The government offered the message exchange as evidence of a plan for the carjacking.
FBI Special Agent James Berni testified as an expert regarding his analysis of historical call detail2
from the cell phones belonging to Gaines and his coconspirators. The relevant cell phone data placed
Duncan, Gayles, and Harris at or near the apartment
building when Kurshid’s car was stolen. The FBI was
unable to retrieve call data for Gaines’s phone. Berni
explained that this lack of data could mean that

5a
Gaines had shut off his phone or was not using it at
the time.
Additional call detail showed Gayles’s phone traveling towards Washington, D.C. during the first few
minutes after the carjacking, while Harris’s phone remained connected to the cell tower at the apartment
complex where the carjacking occurred. Agent Berni
thus concluded that Gayles and Harris were in separate cars. According to the government, this evidence
showed that the conspirators had split into teams of
two, with Gaines and Gayles in the stolen vehicle.2
The government urged the jury to place little
weight on Kurshid’s description of the carjacker to the
911 operator—which was inconsistent in some respects with how Gaines looked in the surveillance
video—because Kurshid was scared during the carjacking and wasn’t focused on the robber’s features
and clothing. Instead, the government asserted, the
jury should focus on the surveillance video showing
Gaines driving the stolen vehicle about twenty
minutes after the crime occurred.
At the close of the government’s evidence, Gaines
moved for a judgment of acquittal on all counts pursuant to Rule 29 of the Federal Rules of Criminal
Procedure. The district court denied the motion but
suggested that if Gaines were to raise his motion
again should he receive an unfavorable verdict, the
2

Call detail analysis combines call data records, which record
data from when a cell phone engages in activities that utilize a
data plan, with the location of cell towers. The analysis provides
an approximate location of a cell phone at a specific time when it
used the network.

6a
court would reconsider the evidence as to the carjacking count at that time.
Gaines elected to testify at trial. He claimed that
he was in the stolen car because Gayles drove past
him and picked him up as he was walking to a “female’s house.” J.A. 1641. According to Gaines, he was
driving the stolen vehicle because Gayles didn’t know
how to get to the house. At some point, the pair decided to stop at a food market, and when they returned
to the car, it would not start. They then abandoned
the car at the market, where the police eventually recovered it. Gaines claimed that he didn’t know the car
was stolen and that he believed Gayles was “rent[ing]”
the car from one of his drug customers in exchange for
drugs. J.A. 1643. Additionally, Gaines explained that
his text message exchange with Harris referred to
Gaines dealing marijuana, not the carjacking.
At the close of evidence, Gaines renewed his Rule
29 motion, which the district court again denied. The
court again advised Gaines to renew his motion if he
received an unfavorable verdict and stated that, at
that time, it would reconsider its ruling as to the carjacking count.
The jury returned a guilty verdict on twelve of the
eighteen counts, including the carjacking count.
Gaines didn’t renew his Rule 29 motion following the
verdict.3

Nonetheless, Gaines’s earlier Rule 29 motions preserved his
sufficiency-of-evidence argument. See United States v. Butler,
211 F.3d 826, 829 (4th Cir. 2000).

3

7a
This appeal followed.
II.
Gaines argues that the district court erred by
denying his Rule 29 motions for a judgment of acquittal. We do not agree.
We review de novo a district court’s denial of a Rule
29 motion. United States v. Alerre, 430 F.3d 681, 693
(4th Cir. 2005).
Under Rule 29, “the court on the defendant’s motion must enter a judgment of acquittal of any offense
for which the evidence is insufficient to sustain a conviction.” Fed. R. Crim. P. 29(a). We must view the
evidence in the light most favorable to the government, and we must affirm a guilty verdict if it is
supported by “substantial evidence.” Alerre, 430 F.3d
at 693 (cleaned up). “Substantial evidence” means “evidence that a reasonable finder of fact could accept as
adequate and sufficient to support a conclusion of a
defendant’s guilt beyond a reasonable doubt.” Id.
(cleaned up). We must assume that the jury resolved
any inconsistencies in the testimony in the government’s favor. Id.
Gaines lodges two complaints regarding the government’s evidence. First, Gaines contends that the
inconsistencies in the victim’s description of the carjackers prove that someone other than Gaines stole
the vehicle. Second, he posits that the messages exchanged between Gaines and Harris have plausible
explanations aside from the carjacking.

8a
Gaines compares the evidence in his case to that in
United States v. Bonner, where we affirmed the district court’s conclusion that there was insufficient
evidence to support a guilty verdict. There, we found
that the government failed to produce sufficient identity evidence placing Bonner at the scene of a robbery
and relied on unsubstantiated, unscientific evidence
to bolster minimal evidence. We explained:
[T]here is a conspicuous absence of any contemporaneous “identity” evidence linking the
defendant to the robbery. The government’s entire case consists of four pieces of
circumstantial evidence: (1) a hat with multiple
DNA matches worn by Bonner was also worn
by one of the robbers; (2) Bonner’s wallet, discovered in the alleged getaway car; (3) phone
records showing calls from Bonner’s cell phone
to [his girlfriend] and [his cousin] the night after the robbery; and (4) a separate phone record
showing a call from a nearby gas station to
[Bonner’s girlfriend]. While it is possible to convict a defendant solely on circumstantial
evidence, in cases where the identity of the perpetrator is in dispute, usually there is some
specific “identity” evidence or uncontroverted
physical evidence that links the defendant to
the scene of the crime.
648 F.3d 209, 214 (4th Cir. 2011). We also noted the
complete “lack [of] any physical description of the robbers from the victims.” Id. Indeed, the only identifying
information offered by the victims was that the robbers were African American. Id. at 211. Additionally,
the government relied on unsupported inferences to

9a
conclude that Bonner’s DNA was on the hat because
he had worn it during the robbery. Id. at 215.
Bonner is not this case. For starters, the identity
evidence here is stronger than in Bonner because it
includes a physical description of the robbers by the
victim and video of Gaines driving the stolen vehicle.
And while Kurshid’s description of the carjackers in
the 911 call was partially inconsistent with the video,
the jury could have resolved any discrepancies by accepting Kurshid’s explanation for them.
Further, in Bonner we cited United States v. Warren, 593 F.3d 540, 547 (7th Cir. 2010), where the
defendant was found in possession of stolen money, as
an example of a case with sufficient identity evidence
linking the defendant to the scene of the crime. Here
(and unlike in Bonner), the video of Gaines driving the
vehicle twenty minutes after it was stolen directly
links Gaines to the crime.
This case is closer to United States v. Corbett,
where we found that a victim’s physical description of
the robbers (including their approximate height,
weight, and clothing), combined with the fact that the
getaway vehicle’s license plate was registered to the
defendant’s car, was sufficient to uphold a guilty verdict. See 374 F. App’x 372, 377 (4th Cir. 2010). Here,
Kurshid’s description in the 911 call of one of his assailants was mostly consistent with that shown in the
surveillance video, even if not an exact match. And
when considered in conjunction with the video of
Gaines driving the vehicle twenty minutes after it was
stolen and the evidence from the historical call detail
analysis, we find it more than adequate to support
Gaines’s conviction.

10a
Finally, Gaines argues that the district court recognized the weakness of the government’s proof by
suggesting that he renew his Rule 29 motion if he
were to receive an unfavorable verdict. He reads too
much into this suggestion. If the district court
trulyhad a concern about the verdict, it could have
granted a judgment of acquittal sua sponte.
See Fed. R. Crim. P. 29(a) (“The court may on its
own consider whether the evidence is insufficient to
sustain a conviction.”). But it didn’t do so.
***
For the reasons given, we affirm the district court’s
judgment. We dispense with oral argument because
the facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

11a
APPENDIX B
AO 245B (Rev. 09/11)(VAED rev. 2)
Sheet 1 - Judgment in a Criminal Case
UNITED STATES DISTRICT COURT
Eastern District of Virginia
Alexandria Division
UNITED STATES
OF AMERICA,
v.

Case Number:
1:17-cr-00106-TSE-4
USM number:
47812-007

LAMONT KORTEZ
GAINES,
Defendant’s Attorney:
Daniel Suleiman, Esquire
Defendant.
William M. Chick, Jr., Esquire
JUDGMENT IN A CRIMINAL CASE
The defendant was found guilty on Counts 1, 12,
13, 14, 15, 26, 27, 28, 29, 39, 40 and 41 of the Indictment after a plea of not guilty.
Accordingly, the defendant is adjudicated guilty of
the following counts involving the indicated offenses.
Title and Nature of
Section
Offense
18 U.S.C.
§ 1951(a)

Offense Offense Count
Class
Ended

Conspiracy to Felony
Obstruct
Commerce by
Robbery

4/13/2017

1

12a
Title and Nature of
Section
Offense

Offense Offense Count
Class
Ended

18 U.S.C.
§ 2 and
195l(a)

Obstructing Felony
Commerce by
Robbery

4/6/2017

12

18 U.S.C.
§ 2 and
195l(a)

Obstructing Felony
Commerce by
Robbery

4/8/2017

13

18 U.S.C.
§ 2 and
1951(a)

Obstructing Felony
Commerce by
Robbery

4/12/2017

14

18 U.S.C.
§ 2 and
2119

Carjacking

3/18/2017

15

Felony
18 U.S.C. Using,
§ 2 and
Carrying and
924(c)(l)(A) Brandishing a
Firearm
During and in
Relation to a
Crime of
Violence

4/6/2017

26

18 U.S.C. Using,
Felony
§ 2 and
Carrying and
924(c)(l)(A) Brandishing a
Firearm
During and in
Relation to a
Crime of
Violence

4/8/2017

27

Felony

13a
Title and Nature of
Section
Offense

Offense Offense Count
Class
Ended

18 U.S.C. Using,
Felony
§ 2 and
Carrying and
924{c)(l)(A) Brandishing a
Firearm
During and in
Relation to a
Crime of
Violence

4/12/2017

28

18 U.S.C. Using,
Felony
§ 2 and
Carrying and
924(c)(l)(A) Brandishing a
Firearm
During and in
Relation to a
Crime or
Violence

3/18/2017

29

18 U.S.C.
§ 2 and
922(g)(l)

Possession of a Felony
Firearm by a
Prohibited
Person

4/6/2017

39

18 U.S.C.
§ 2 and
922(g)(I)

Possession of a Felony
Firearm by a
Prohibited
Person

4/8/2017

40

18 U.S.C.
§ 2 and
922{g)(I)

Possession of a Felony
Firearm by a
Prohibited
Person

4/12/2017

41

14a
AO 245B (Rev. 12/03)(VAED rev. 2)
Sheet 1 - Judgment in a Criminal Case

Page 2 of 7

Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
The defendant was found not guilty on (Count 9,
10, 23, 24, 37 and 38 of the Indictment) as to defendant LAMONT KORTEZ GAINES.
As pronounced on October 4, 2019, the defendant
is sentenced as provided in pages 2 through 7 of this
Judgment. The sentence is imposed pursuant to the
Sentencing Refonn Act of 1984.
It is ORDERED that the defendant shall notify the
United States Attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify
the court and United States Attorney of material
changes in economic circumstances.
Signed this 4th day of October, 2019.
s/ T. S. Ellis, III
T. S. Ellis, III
United States District Judge

15a
AO 245B (Rev. 9/11) (VAED rev. 2)
Judgment in a Criminal Case
Sheet 2 - Imprisonment

Page 3 of 7

Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be
imprisoned for a term of THREE HUNDRED AND
FIFTY-SIX (356) MONTHS with credit for time
served as computed by the Bureau of Prisons
pursuant to statute.
This term of imprisonment consists of terms of
TWENTY (20) MONTHS on each of Counts 1, 12, 13,
14, IS, 39, 40 and 41 to run concurrently with each
other and EIGHTY-FOUR (84) MONTHS on each of
Counts 26, 27, 28, and 29 to run consecutively to each
other and consecutively to the sentence imposed on
Counts 1, 12, 13, 14, IS, 39, 40, and 41.
The Court makes the following recommendations
to the Bureau of Prisons:
The Court recommends that the defendant be
designated to a facility as close as possible to his
family in Virginia.
The defendant is remanded to the custody of the
United States Marshal.

16a
RETURN
I have executed this judgment as follows:
Defendant delivered on

to
at ___________________ ,
with a certified copy of this Judgment.
UNITED STATES MARSHAL
By

DEPUTY UNITED STATES MARSHAL

17a
AO 245B (Rev. 09/11)(VAED rev. 2)
Judgment in a Criminal Case
Sheet 3 - Supervised Release

Page 4 of 7

Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of FIVE (5)
YEARS.
This term consists of terms of THREE (3) YEARS
on each of Counts 1, 12, 13, 14, 15, 39, 40 and 41 and
FIVE (5) YEARS on each of Counts 26, 27, 28, and 29
to all run concurrently with each other.
The Probation Office shall provide the defendant
with a copy of the standard conditions and any special
conditions of Supervised Release.
The defendant shall report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the
Bureau of Prisons.
The defendant shall not commit another federal,
state or local crime.
The defendant shall not unlawfully possess a
controlled substance. The defendant shall refrain
from any unlawful use of a controlled substance. The
defendant shall submit to one drug test within 15 days
of release from imprisonment and periodic drug tests
thereafter, as determined by the court.

18a
The defendant shall not possess a fireann,
ammunition, destructive device, or any other
dangerous weapon.
If this judgment imposes a fine or restitution
obligation, it is a condition of Supervised Release that
the defendant pay any such fine or restitution in
accordance with the Schedule of Payments set forth in
the Criminal Monetaty Penalties sheet of this
judgment.
STANDARD CONDITIONS OF SUPERVISED
RELEASE
The defendant shall comply with the standard
conditions that have been adopted by this court set
forth below:
1) the defendant shall not leave the judicial district
without the permission of the court or probation
officer;
2) the defendant shall report to the probation officer
and shall submit a truthful and complete written
report within the first five days of each month;
3) the defendant shall answer truthfully all inquiries
by the probation officer and follow the instructions
of the probation officer;.
4) the defendant shall support his or her dependents
and meet other family responsibilities;
5) the defendant shall work regularly at a lawful
occupation, unless excused by the probation
officer for schooling, training, or other acceptable
reasons;

19a
6) the defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;
7) the defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use,
distribute, or administer any narcotic or other
controlled substance or any paraphernalia related
to such substances, except as prescribed by a
physician;
8) the defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed, or administered;
9) the defendant shall not associate with any persons
engaged in criminal activity and shall not
associate with any person convicted of a felony,
unless granted pennission to do so by the
probation officer;
10) the defendant shall pennit a probation officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband
observed in plain view of the probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12) the defendant shall not enter into any agreement
to act as an infonner for a special agent of a law
enforcement agency without the pennission of the
court;
13) as directed by the probation officer, the defendant
shall notify third parties of risks that may be

20a
occasioned by thedefendant’s criminal record or
personal history or characteristics and shall
pennit the probation officer to make such
notifications and to confirm the defendant’s
compliance with such notification requirement.

21a
AO 245B (Rev. 09/11)(VAEO rev. 2) )
Judgment in a Criminal Case
Sheet 3A - Supervised Release

Page 5 of 7

Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
SPECIAL CONDITIONS OF SUPERVISION
While on Supervised Release pursuant to this
Judgment, the defendant shall also comply with the
following additional special conditions:
1) The defendant shall apply all monies received
from income tax refunds, lottery winnings,
inheritances,judgments, and any anticipated or
unexpected financial gains, to the outstanding
court-ordered financial obligation, or in a lesser
amount to be determined by the court, upon the
recommendation of the probation officer.
2) The defendant shall not incur new credit charges
or open additional lines of credit without the
approval of the probation officer.
3) The defendant shall provide the probation officer
access to any requested financial information.
4) The defendant shall participate in a program
approved by the United States Probation Office
for substance abuse, which program may include
residential treatment and testing to determine
whether the defendant has reverted to the use of
drugs or alcohol, with partial cost to be paid by the
defendant, all as directed by the probation officer.

22a
5) The defendant shall participate in a program
approved by the United States Probation Office
for mental health treatment. The cost of this
program is to be paid by the defendant as directed
by the probation officer.

23a
AO 245B (Rev. 09/11)(VAED rev. 2)
Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties Page 6 of 7
Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the Schedule of Payments on Sheet 6.

24a
Count Assessment

Fine

Restitution

1

$100.00

$0.00

$7378.00

12

$100.00

$0.00

$0.00

13

$100.00

$0.00

$0.00

14

$100.00

$0.00

$0.00

15

$100.00

$0.00

$0.00

26

$100.00

$0.00

$0.00

27

$100.00

$0.00

$0.00

28

$100.00

$0.00

$0.00

29

$100.00

$0.00

$0.00

39

$100.00

$0.00

$0.00

40

$100.00

$0.00

$0.00

41

$100.00

$0.00

$0.00

TOTALS:

$1200.00

$0.00

$7378.00

FINES
No fines have been imposed in this case.
RESTITUTION
The defendant shall pay restitution in the amount
of $7,378.00 pursuant to the Restitution Order
entered by the Court.

25a
Of the total restitution amount, the defendant is
jointly and severally liable with the following codefendants: Andrew Bernard Duncan, docket no. 1:17cr-00106-TSE-2 to pay $1,880.00 and Anton Durrell
Harris, docket no. l:17-cr-00106- TSE-3 to pay
$7,378.00 and Desmar Rashad Gayes, docket no. 1
:17-cr-00106-TSE-1 to pay $1,880.00.

26a
AO 245B (Rev. 09/11)(VAED rev. 2)
Sheet 6 - Schedule of Payments

Page 7 of 7

Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties are
due as follows:
The special assessment shall be due in full
immediately.
Interest on the restitution is waived. On any unpaid
balance, the defendant shall pay to the Clerk at least
$100 per month or 25% of net income, whichever is
greater, beginning 60 days after release from any
period of confinement. The court reserves the option
to alter this amount, depending upon defendant’s
financial circumstances at the time of supervised
release.
Of the total restitution amount, the defendant is
jointly and severally liable with the following codefendants: Andrew Bernard Duncan, docket no. l:17cr-00106-TSE-2 to pay $1,880.00 and Anton Durrell
Harris, docket no. 1:17-cr-00106- TSE-3 to pay
$7,378.00 and Desmar Rashad Oayes, docket no. 1:17cr-00106-TSE-l to pay $1,880.00.
The defendant shall forfeit the defendant’s interest in
the following property to the United States:
SEE Order of Forfeiture entered by the Court on
October 4, 2019.

27a
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the Clerk of the Court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed. Payments shall be applied in the
following order: (1) assessment (2) restitution
principal (3) restitution interest (4) fine principal (5)
fine interest (6) community restitution (7) penalties
and (8) costs, including cost of prosecution and court
costs.
Nothing in the court’s order shall prohibit the
collection of any judgment, fine, or special assessment
by the United States.

28a
AO 245B (Rev. 09/11)(VAED rev. 2)
Judgment in a Criminal Case
Statement of Reasons - Page 1
Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
STATEMENT OF REASONS
I. COURT FINDINGS ON PRESENTENCE
INVESTIGATION REPORT
A. ☐ The court adopts the presentence
investigation report without change.
B. ☒ The court adopts the presentence
investigation report with the following
changes.
(Check all that apply and specify court
determination, findings. or comments,
rererencing paragraph numbers in the
presentence report. if applicable.)
(Use page 4 if necessary.)
The Court adopts the presentence
investigation report with change and
sustains defendant’s objection to the PSR
calculation, pursuant to Section IBl.2(d).
Accordingly. the Offense level to decreases
from level 27 to 26, which results in a
guidelines range for Counts 1, 12, 13, 14, 15,
39, 40, and 41 of 78 to 97 months guidelines
rather than 87 to I08 months which
changes.
☐ Chapter Two of the U.S.S.G. Manual determinations by court (including changes

29a
to base offense level or specific offense
characteristics):
☐ Chapter Three of the U.S.S.G. Manual
adjustment determinations by court (including changes to victim-related
adjustments. rote in the offense. obstruction of justice. multiple counts. or
acceptance of responsibility):
☐ Chapter Four of the U.S.S.O. Manual detenninationsby court (including changes
to criminal history category or scores. career offender. or criminal livelihood
determinations):
☐ Additional Comments or Findings (including comments or factual findings
concerning certain infonnation in the
presentence report that the Federal Bureau of Prisons may rely on when it
makes inmate classification. designation. or programming decisions. Specify
court comments or findings. including
paragraphs inthe presentence report.)
C. ☐ The record establishes no need for a
presentence investigation report pursuant
to Fed.R.Crim.P.32.
II. COURT FINDING ON MANDATORY
MINIMUM SENTENCE (Check all that
apply.)
A. ☐ No count of conviction carries a mandatory
minimum sentence.

30a
B. ☒ Mandatory minimum sentence imposed
C. ☐ One or more counts of conviction alleged in
the indictment cany a mandatory minimum
term of imprisonment. but the sentence
imposed is below a mandatory minimum
term because the court has determined that
the mandatory minimum does not apply
based on
☐ findings of fact in this case
☐ substantial assistance (18 U.S.C. §
3SS3(e))
☐ the statutory safety valve (18 U.S.C. §
3SS3(f))
III. COURT DETERMINATION OF ADVISORY
GUIDELINE RANGE (BEFORE
DEPARTURES):
Total Offense Level:

27 → 26

Criminal History:

III

Imprisonment Range:
87 to 108 months: Counts: 1, 12-15. 39-41 →
78 to 97 months:
7 years consecutive to all other counts: Count 26
7 years consecutive to all other counts: Count 27
7 years consecutive to all other counts: Count 28
7 years consecutive to all other counts: Count 29
Supervised Release:
1 to 3 years: Counts 1, 12-15, 39-41

31a
2 to 5 years: Counts 26-29
Fine Range

$25,000 to $250,000

☒ Fine waived or below the guideline range because of inability to pay.

32a
AO 245B (Rev. 09/11)(VAED rev. 2)
Judgment in a Criminal Case
Statement of Reasons - Page 2
Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
STATEMENT OF REASONS
IV.

ADVISORY GUIDELINE SENTENCING
DETERMINATION (Check only one.)
A. ☐ The sentence is within an advisory guideline
range that is not greater than 24 months,
and the court finds no reason to depart.
B. ☐ The sentence is within an advisory guideline
range that is greater than 24 months, and
the specific sentence is imposed for these
reasons. (Use page 4 if necessary.)
C. ☐ The court departs from the advisory
guideline range for reasons authorized by
the sentencing guidelines manual. (Also
complete Section V,)
D. ☒ The court imposed asentence outside the
advisory sentencing guideline system. (Also
complete Section VI.)

V. DEPARTURES AUTHORIZED BY THE
ADVISORY SENTENCING GUIDELINES
(lf applicable.)
A. The sentence imposed departs (Check
only one.):
☒ below the advisory guideline range
☐ above the advisory guideline range

33a
B. Departure based on (Check all that
apply.):
1. Plea Agreement (Check all that apply
and check reason(s) below.):
☐ 5K1.1 plea agreement based on the
defendant’s substantial assistance
☐ 5K3.1 plea agreement based on Early
Disposition or “Fast-track” Program
☐ binding plea agreement for departure
accepted by the court
☐ plea agreement for departure, which the
court finds to be reasonable
☐ plea agreement that states that the
government will not oppose a defense
departure motion
2. Motion Not Addressed in a Plea Agreement (Check all that apply and check
reason(s) below.):
☐ 5K1.1 government motion based en the
defendant’s substantial assistance
☐ 5K3.l government motion based en Early
Disposition or “Fast-track” Program
☐ government motion for departure
☐ defense motion for departure to which the
government did not object
☐ defense motion for departure to which the
government objected
3. Other

34a
☐ Other than a plea agreement or motion by
the parties for departure (Check reason(s)
below.):
C. Reason(s) for Departure (Check all that
apply other than SKI.I or 5K3.I)
☐ 4Al.3 Criminal History In Adequaey
☐ 5Hl.1 Age
☐ 5Kl.2 Education and Vocational Skills
☐ 5Hl.4 Physical Condition
☐ 5H1.5 Employment Record
☐ 5Hl.6 Family Ties and Responsibilities
☐ 5H1.11 Military Record, Charitable
Services, Good Works
☐ 5K2.0 Aggravating or Mitigating
Circumstances
☐ 5K2.1 Death
☐ 5K2.2 Physical Injury
☐ 5K2.3 Extreme Psychological Injury
☐ 5K2.5 Property Damage or Loss
☐ 5K2.6 Weapon or Dangerous Weapon
☐ SK2.7 Disruption of Government Function
☐ 5K2.8 Extreme Conduct
☐ 5K2.9 Criminal Purpose
☐ 5K2.10 Victim’s Conduct
☐ 5K2.11 Lesser Hann
☐ 5K2.12 Coercion and Duress
☐ 5K2.13 Diminished Capacity

35a
☐ 5K2.14 Public Welfare
☐ 5K2.16 Voluntary Disclosure of Offense
☐ 5K2.17 High-Capacity Semiautomatic
Weapon
☐ 5K2.18 Violent Street Oang
☐ 5K2.20 Aberrant Behavior
☐ 5K2.21 Dismissed and Uncharged Conduct
☐ 5K2.22 Age or Health of Sex Offenders
☐ 5K3.1 Early Disposition, “fast-track”
Program
☐ 5K2.23 Discharged Tenns of Imprisonment
☐ Other guideline basis (e.g.• 2B1.1
commentary)
D. Explain the facts justifying the
departure. (Use page 4 if necessary.)

36a
AO 245B (Rev. 09/11)(VAED rev. 2)
Judgment in a Criminal Case
Statement of Reasons - Page 3
Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
STATEMENT OF REASONS
VI.

SENTENCE OUTSIDE THE ADVISORY
GUIDELINE SYSTEM (Check all that
apply.)

A.

The sentence imposed is (Check only
one.):
☒ below the advisory guideline range
☐ above the advisory guideline range

B.

Sentence imposed pursuant to (Check all
that apply.):
1. Plea Agreement (Check all that apply and
check reason(s) below.):
☐ binding plea agreement for a sentence
outside the advisory guideline system
accepted by the court
☐ plea agreement for a sentence outside the
advisory guideline system, which the court
finds to be reasonable
☐ plea agreement that states that the
government will not oppose a defense
motion to the court to sentence outside the
advisory guideline system

37a
2. Motion Not Addressed in a Plea
Agreement (Check all that apply and
check reason(s) below.):
☐ government motion for a sentence outside
of the advisory guideline system
☐ defense motion for a sentence outside of the
advisory guideline system to which the
government did not object.
☐ defense motion for a sentence outside of the
advisory guideline system to which the
government objected
3. Other
☒ Other than a plea agreement or motion by
the parties for a sentence outside of the
advisory guideline system (Check reason(s)
below.):
C.

Reason(s) for Sentence Outside the
Advisory Guideline System (Check all
that apply.)
☒ the nature and circumstances of the offense
and the history and characteristics of the
defendant pursuant to 18 U.S.C.
§3553(a)(1)
☒ to reflect the seriousness of the offense, to
promote respect for the law, and to provide
just punishment for the offense (18 U.S.C §
3SS3(a)(2)(A))
☒ to afford adequate deterrence to criminal
conduct (18 U.S.C § 3553(a)(2)(B))
☐ to protect the public from further crimes of
the defendant (18 U.S.C § 3553(a)(2)(c))

38a
☐ to provide the defendant with needed
educational or vocational training, medical
care, or other correctional treatment in the
most effective manner (18 U.S.C §
3553(a)(2)(D))
☒ to avoid unwarranted sentencing
disparities among defendants (18 U.S.C §
3SS3(a)(6))
☒ to provide restitution to any victims of the
offense (18 U.S.C § 3553(a)(7))
D. Explain the facts justifying a sentence outside the advisory guideline system. (Use page 4
if necessary.)
Although defendant’s crimes were very serious and
warranted a severe sentence, the sentence compelled
by law is in excess of what is required to serve the
goals of sentencing under§ 3553(a), but Congress did
not permit judicial discretion on the § 924(c) counts.

39a
AO 245B (Rev. 09/11)(VAED rev. 2)
Judgment in a Criminal Case
Statement of Reasons - Page 4
Defendant’s Name: GAINES, LAMONT KORTEZ
Case Number:
1:17-cr-00106-TSE-4
STATEMENT OF REASONS
VII.

COURT DETERMINATIONS OF
RESTITUTION

A. ☐ Restitution not applicable.
B. Total Amount of Restitution: $7,378.00
C. Restitution not ordered (Check only one.):
1. ☐ For offenses for which restitution is otherwise mandatory under 18 U.S.C. § 3663A,
restitution· is not ordered because the number of identifiable victims is so large as to
make restitution impracticable under 18
U.S.C. § 3663A( c )(3)(A).
2. ☐ For offenses for which restitution is otherwise mandatory under 18 U.S.C. § 3663A,
restitution is not ordered because detennining complex issues of fact and relating
them to the cause or amount of the victims’
losses would complicate or prolong the sentencing process to a degree that the need to
provide restitution to any victim would be
outweighed by the burden on the sentencing
process under 18 U.S.C. § 3663A(c)(3)(8).
3. ☐ For other offenses for which restitution is
authorized under 18 U.S.C. § 3663 and/or

40a
required by the sentencing guidelines, restitution is not ordered because the
complication and prolongation of the sentencing process resulting from the
fashioning of a restitution order outweigh
the need to provide restitution to any victims under 18 U.S.C. § 3663(a)(l)(B)(ii}.
4. ☐ Restitution is not ordered for other reasons:
D. ☒ Partial restitution is ordered under 18 U.S.C.
§ 3553(c) for these reasons:
VIII. ADDITIONAL FACTS JUSTIFYING THE
SENTENCE IN THIS CASE (If
applicable.)
Sections I, II, III, IV, and VII of the Statement of
Reasons

